NO. 20-7093

IN THE
SUPREME COURT OF THE UNITED STATES

NOEL CHRISTOPHER TURNER-2PETITIONER

Vs.

BOSSY LUMPKIN DIRECTOR OF Ma] -- RESPONDENT
ON PETITION FOR WRIT OF CERTIORARI TO

UNITED STATES COURT OF APPEALS -- FIFTH CIRCUIT

PETITION FOR REHEARING

Noel C. Turner #1861086
Poulledoe Unit
1400 FM 3452
Palestine, Texas 75803-2350

RECEIVED
MAY 1 8 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

TABLE OF CONTENTS
Table ❑f contents
Table of Authorties Cited

ii

Statement of Case

1

Argument For Rehearing on Sexual Assault

3

Verifiable Timeline

4

Alleged Assault Timeline

5

Argument For Reheareing On Conspiracey to Committ Arson

6

Prayer

9

Proof of Service

9

Certificate of Counsel

10

TABLE OF AUTHORITIES

CITED
PAGE NUMBER.

CASES
Briggs v. Procunier, 764 F.2d 368 (5th Cir. 1985)

6

Childress. v. Johnson, 103 F.3d 1221 (5th Cir. 1997)

6

Earl v. State, 870 S.W.2d 669 (Tex.App. 1 994)

6

Ex Parte Spencer, 337 S.W.3d 869 (Tex.Crim.Rnp. 2011)

5

Halay Cockrell, 306 F.3d 257 (5th Cir. 2002)

- 7

Herrera v. Collins, 506 U.S. 390 (1993)

3,5

House v. Bell, 547 U.S. 518 (2006)

5

.McOuiggin v. Perkins, 113 S.Ct. 1924 (2013)

3
1,3,4

Schlup v. Delo, 513 U.S. 298 (1995)
Smith v.

Collins 997 F.2d 951 (5th Cir. 1992)

7

Sores v. Harpett)61 F.3d 410 (5th Cir.1995)

7

United States v. Ilabeck, 23 F.3d 888 (4th Cir. 1994)

7

STATUES

28 U.S.C. § 2244

2

Texas Penal Code § 15.02

6

Texas Code of Criminal Procedures, Artical 28.10

6

RULES

U.S. Supreme Court Rule 44

1

U.S. Supreme Court Rule 29

ii

,

.

TO THIS GREAT HONORABLE COURT:
NOW COMES NOEL TURNER, Petitioner, pr❑ se, indigent prisoner litigant with
his Petition for Rehearing pursuant to this courts Rulle 44; and will show the
following:
STATEMENT OF THE CASE
Turner is challenging three convictions from the 397th District Court of
Grayson County, Texas. On October 10, 2012 Turner was indicted for 1 Count ❑f
Credit Card or Debit Card Abuse, a State Jail Felony (Cause #602317), and for
1 Count of Sexual Assault Child, a Second Degree Felony (Cause #062316). Then
n October 24, 2012, Turner was indicted for 1 Count Attempt to Commit Arson,
a Third Degree Felony (Cause #062343). There were NO enhancements within any
of these indictments. On March 25, 2013, the State refused/dismissed the 1 Count
of .4ttept t❑ Commit Arson. Turner then entered the following Plea Agreement in
writing: Credit Card Abuse - State Jail Felony, Plead Guilty, sentenced to 1 year
State Jail; Sexual Assault, Second Degree Felony, Entered an "ALFORD PLEA",
sentenced to 5 years TDCJ; Conspiracy to Commit Arson, Second Degree Felony,
Plead Guily BUT was sentence to as a First Degree. Felony (with additional enhancements)
and sentenced to 28 years TDCJ. All sentences were to run concurrently.
Turner did not appeal the convictions.
Turner filed one writ of habeas corpus in State Court (NE86,301-01); Sexual
Assault) on September 15, 2016, and two other writs of habeas corpus in State
Court (WR:86, 301-02: Credit Card Abuse & WP,: P6, 301-03: Conspirecey to Commit
Arson) on September 20, 2016. He argued: 1) Denied Cousnel During Preliminary
Hearing; 2) Search Warrants Unconstitutional; 3) Denied,Counsel During Hearing;
4) Denied the Effective Assistance of Counsel; 5) Actual Innocent; 6) Failure
t❑ Disclose Evidence; 7) Applicants' Plea Involuntary - Applicant/Factually
Innocent; 8) Range of Punishment Exceed the Statutory Maximum; and 9) Unconstitutional
Enhancement of Sentence. On February e, 2017 the Texas Court of Criminal Appeals

--,

_
1

dismissed the application regarding the Credit Card or Debit Card Abuse conviction
for their reasoning that it had been discharged. On the same day, the remaining
two applications were denied without written order on finding of the trial court
without a hearing.
Turner then filed three writs of habeas corpus in the United States District
Court, Easten District ❑f Texas on May 2, 2017.(4:17-CV-326 - Creidt Card. Abuse;
4:17-CV-327 - Sexual Assault; and 4:17-CV-328 - Conspiracy to commit Arson). Then
on May 29, 2017 Turner was granted to proceed infora pauperis in these instant
cxases. Turner presented the same nine (9) Grounds/Issues as he did in his Atical
11.07 in the State Habeas Corpus'... On October 17, 2018 these three wirits of
habeas corpus were consolidated under 4:17-CV-326, as all cases involved Grayson
County convictions, was sentenced in each on May 23, 2013. The cases have common
questions of law and fact, thus consolidation wuld avoid unnecessary duplication
of effort, cost and delay. On July 8, 2019 Final Judgment was rendered and it
was ordered that the petitions for a writ of habeas corpus are dismissed with
prejudice as time-barred.
On July 15, 2019 Turner filed his Notice of Filing a Petion for Certificate
of Appealability [COA] with the United States Coaurt of Appeals,. Fifth Circuit,
No. 19-40696. This notice was timely filed. On August 29, 2019 Turner filed for
a thirty (30) day Extention to file his petition for a COA, which the court granted
to and including October 30, 2019. On October 16, 201.9 Turner filed his Motion
for Petition for COA with Brief in Support; with Exhibits; presenig: ISSUE NO.1:
Does Turner's Pleas prevent him from filing an "Actual Innocence" claim? ISSUE
NO.2: Does Turner qualify for "Equitable Tolling" under 28 U.S.C. § 2244(d)(1)(d)?
ISSUE NO.3: Does Turner meet the "Actual Innocence" gateway, which is never "time
barred", under schlup v. Delo, 115 S.Ct. 851 (1995)? ISSUE N0.4: Is the Constitutional
error of Inefective Assistance of Counsel proven in these case? (a) Failing to

2.

....

,

investigate; (b) Alibi Defense; (c) Failing to secure Discovery; (d) Failing to
file fundemental motions.
On September 8, 2020 the U.S. Court of Apoeals - Fifth Circuit entered judgment
denying Turner's request for a COA. The court said that Turner did not make the
requisit showing that jurist of reason would find it debatable whether the petition
states a valid claim of denial of a Constitutional Right and that jurist ❑f reason
would fid it debatable whether the district court was correct in its procedural
ruling. On September 14, 2020 Turner filed a Motion for leave for extention of
time to file a petition for Rehearing. This was denied on September 18, 2020,
as Turner was informed that a panel rehearing of an administrative order is not
allowed. On September 23, 2020 Turner filed a Motion for Extention of Time in
order to file a proper motion for Reconsideration. On September 23, 2020 Turner
filed his Motion for Reconsideration, presenting: REASON NO. 1 - This Honorable
court misapplied the facts t❑ this case of the U.S. SUpreme Court's standard set
forth in Herrera v. Collins, 506 U.S. 390 (1993); REASON NO. 2 - Tdhis Honorable
Court misapplied the facts ❑f this case to the U.S. Csupreme Court's standard
of review set forth in ----Schlup v. Delo, 513 U.S. 298 (1995); REASON NO. 3 - This
Honorable court misinterpreted the U.S. Supreme Court's decision in McOuiggin
vjerkins, 133 S.Ct. 1924 (2013). On October 7, 2020 the U.S. Court of Appels
- Fifth Circuit granted t❑ hear my motion for reconsideration and then on the
same date, denied it.
On January 29, 2021 Turner then files his Petition for Writ of Certiorari
in the U.S. Supreme Court. On April 19, 2021 This Court denied Turner's Petition
for a writ of certiorari. Turner now files this petition for a Rehearing.

ARGUMENT FOR REHEARING ON SEXUAL ASSAULT
In the case ❑f Sexual Assault (Cause No. 4:17-CV-327); the clear and distinct
standard set by this Court is:

3.

[A] petitioner does not meet the threshold requirement [of Actual Innocence]
unless he persuades the district court that, in light of the new evidence,
n❑ juror, actina reasonably, would have voted to find him guilty beyond a
reasonable dout.Schlup v. Delo, 513 U.S. 299, 329 (1995).
As the petitioner has clearly shown in his Petition for Writ of Certiorari,
Appendix F (Petitioner has n❑ way to make any copies to attach to this petion,
thus must reference previously filed ,petition of writ of certiorari]... these
documents show that petitioner was miles away with witnesses, purchasing a bed
which he signed the receipt to and took it home, again with witnesses... at the
exact same date and time period that the alleged victim claimed that it happened
on - a claim made twice, at different times and t❑ different individuals and both
are in the record. It is clear that NO human can be at point "A" and at point
"9" - which are separated by miles... at the exact same time. No juror, acting
reasoanably, would have voted to find Turner guilty beyond a reasonable dout.
Likewise, the claim of the alleged trim as told by the alleged victim must
leave physical evidence - which the law enforcement investigation and SANE Exam
clearly shows that there is NONE... for this alleged. act to have occured even
in its simplest form, this - the lack ❑f physical evidence - would not he possible.
N❑ juror, acting reasonable, would have voted to find Turner guilty beyond a reasonable
doubt.
With the following time-line:
VERIFIABLE TIMELINE
0:30 AM to 5:00 PM - Turner is at work. Records will prove this fact.
5:15 PM to 5:45 PM - In route to Goodwill on Texoma Parkway with Amy. .
5:50 PM to 6:05 PM - Leave Goodwill on Texoma Parkway t❑ Signature Furniture
6:10 PM to 7:00 PM - Purchasing Bed at Signature Furniture with Amy & Witnesses.
7:00 PM to 7:30 PM- Return home with Amy and bed.
7:30 PM to 9:00 PM - Bob Thomas helps Turner move furniture at his home and
to set up bed.
9:00 PM to 5:30 AM - Turner is at home with Amy.
4.

.,

ALLEGED ASSAULT TIMELINE
5:00 PM to 5:15 PM - Cheer Camp released.according t❑ reports.
5:15 PM to 7:30 PM - Where shouts of alleged victim UNKNOWN.
7:30 PM to 8:00 PM - Alleged assault ❑ccurs
9:30 PM - Time changes according to victim second version of how
and when the assault supposedly occured.
The above time-line shows that Turner can prove with documented facts that he
was miles away when this alleged attack allegedly happened.. The documents in the
Appendix F (Petition for writ of certiorari) prove where petitioner is at! Given
such, the outcome of a trial would lead a jury t❑ find Tuner not guilty of this
offense, as he can not be at two seperate places at the same time with the claims
of the events of the attack, the very LACK OF ANY EVIDENCE. PROVES the cleomed
events did not happen. As she claimed that we fought in the back of Turners new
Dodge Pick-up that has a factory built in non-skid bed liner, and that during
this battle, Turner removed her clothes and penitrated her twice to the point
of PAIN... yet the very "evidence shows" via the SANE Exam Report (Appendic F.
Pages 16 - 20; Petition for writ of Cert.). that there is NO TRAMA, that there
was no cuts, n❑ scraps, no bruises, or anthing that one would have to have if
they had been in any type of scuffel much less fighting off an attack in the back
of a pick-up with a non-skid bed liner! The alleged penetration - TWICE - to the
"point of pain"... the SANE Exam proves that she was at the time of the Exam,
a fully 100% VIRGIN... so if penetration to the point of pain had occured, her
jyman would have been broken, or damaged, which it was in fact not. In fact, there
is not one single pice of evidence to support a single point ❑f her claim.... the
only proof actually points that her claim is false. But Turner does now have documented
proof of his whereabouts with witnesses as well. The very lack ❑f any evidence
to support that any crim occured, factually it must take the form of Actaul Innocence
under Herrera v Collins 506 U.S. 390 (1993), accord House
v. Bell, 547 U.S.
---------518, 535 (2006); and Ex parte Spencer, 337 S.W.3d 869 (Tex.Crim.App. 2011).

s-

5.

Turner's counsel refused to investigate the alibi, the witnesses, the receipts,
etc.. Turner is suppose to have a constitutional protection of effective assistance
of counsel. When in fact Turner shows that his court appointed counsel failed
to be an advocate, in the fundamental areas of defense: (1) failing to investigate;
(2) failing to presente and advance an alibi defense; (3) failing to secure discovery;
(4) failing to file any fundamental motions; and (5) failed to obtain exculplitory
evidence that the investigators in this case- had in their possession with the
knowledge of the Assistant District Attorney assigned to my cases.

ARGUMENT FOR REHEARING ON CONSPIRACEY TO COMMIT ARSON

In the Conspiracy to Commit Arson (Cause No. 4:17-CV-0328). Turner was actually
indicted for a Third (3rd) Degree Felony with NO enhancements (Appendix F. P.
13, Petition for writ of Cert.), this carries a range of punishment of Two (2)
to Ten (10) years. The language under section 15.02(d) Texas Penal Code demands
that the range of Punishment is one (1) category lower than the most serious felony,
which is a Third Degree. Counsel never infomred the applicant of any enhancement.
As the indictment was never amended nor altered, as per the requirements of the
Texas Code of Criminal Procedure Artical 28.10 demands it must he done. See
Childress v. Johnson, 103 F.3d 1221 (5th Cir. 1997) (prior convictions must be
alleged in indictment to be used to enhance defendant's sentence, under Texas
Law); see also Earl v. State, 870 S.W.2d 669 (Tex.App. 1994); accord Briggs
Procunier, 764 F.2d 368, 371 (5th Cir. 1985)(quotino Bullard; 665 F.2d at 135758("The two oprior convictions must be alleged in the indictment, and upon review
the allegations are treated the same as allegations of the ellements of a
substantive offense".).
Now, there was NO enhancement nor anything served on Turner indicating otherwise. Besides, for Turner to go from a 3rd Degree Felfony to a 1st Degree Felony

6.

,

Turner would have to have at minimum two (2) prior Felony convictions.... which:
Turner DOES NOT HAVE, only ❑ne (1), thus there is NO way under Law, that such
an enhancement could have even occured... yet Turner was given a 28 year sentence
under a 1st Degree! (Appendix F. p. 13, Petition for writ of Cert.) As stated
in Halay. Cockrell, 306 F.3d 257, 267 (5th Cir. 2002:
In order to be sentenced es a habitual felony ❑ffender, the Texas Penal Code
requires that Haley must have been previously convicted of two felonies and
the second previous felony conviction is for an offense that occurred susequent
to the first previous conviction having become final"...."[T]he requirements
of the Texas habitual felonly offender statute have not been satisified resulting
in Haley's ACTUAL INNOCENCE of his status as a habitual felonly offender
and consequently, the improper enhancement of his sentencing. (emphisis added).
Turner is not quiltly of being a habitual offender and the Fifth Circuit has
already stated in Halfy...., 306 F.3d at 263-64:
In ❑rder to be ACTUALLY INNOCENT of a non-capital sentence, the petitioner
must show that "Put for the constitutional error he would not have been legally
eligible for the sentence he received." Sones v. Hargett, 61 F.3d 410, 418
" 997 F.2d 951, 959 (5th CIr. 1992)).
(5th Cir. 1995)(citing Smith v. Collins.
(Emphisis added)
Then in Haley, 306 F.3d at 264, "we now hold that the actual innocence exception
applies to non-capital sentencing procedures involving a career ❑r habitual
felonnly offender."
And in Haley.) 306 F.3d at 266, "Thus, applying the actual ionnocence execption
in either case meets the 'objective of protecting defendants from sentencing
based on elements of crimes for wich they are conslusively innocent.'". United
States v. Maybeck, 23 F.3d 888, 894 (4th Cir. 1994).
Thus Turner is NOT guilty of being a habitual offender so there is no legal
way to enhance Turner from a 3rd t❑ a 1st Degree under the Texas Penal Codes.
Turner is actually innocent of a habitual offender and thus a 1st Degree sentence
of 28 years is ILLEGAL and UNCONSTITUTIONAL. Only with the ineffective assistance
of counsel could such a travisty of justice have ❑ccured; a trained attorney
who has allegedly passed the Bar, surly knew better than to allow this to happen,
much less t❑ assist in it being done to Turner.

7.

PRAYER.
Petitioner pleads with this Honorable Court to GRANT a Rehearing on these
issues and t❑ look over his Petition For Writ Of Certiorati... Petitioner feels
that, then, this Honorable Court will see the gross miscarriage of justice, the
various violations of Petitioners Constitutional Rights and that in fact, he
is actually innoccent of the Sexual Assault and ❑f being a "Career or habitual
Offender". Please give this case another look and set these injustices right.

I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 7, 2021.
Resepctfully submitted,

negzLiaht_
Noel Turner #16510R5
Powledge Unit
1400 FM 3452
Palestine, Texas 75803-2350

8.

PROOF OF SERVICE
I, Noel Christopher Turner, do swear or declare that ❑n this date, May 7, 2021,
as required by Supreme Court Rule 29; I have served the enclosed MOTION FOR REHEARING on each party to the above proceeding or that party's counsel, adn on
every other person required to be served, by depositing an envelope coltaining
the above documents in the United States Mail properly addressed to each of them
and with First-class postage prepaid, or be delivery to a third-party commercial
carrier for delivery within 3 calendar days.
The names and address ❑f those served are as follows:
Mr. Nathan Tadema,
Assistant Attorney General of Texas
P.O. tax 12548
Capital Station
Austin, Texas 78711-2548

I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 7, 2021.

12egeLtL

Noel Christopher Turner

9.

CERTIFICATE OF COUNSEL
(or ❑f a party unrepresented by counsel)
I hereby certify that this petition for Rehearing is restricted to the grounds
specified in Supreme Court Rule 44(2) - its grounds shall be limited t❑ intervening
circumstances of a substantial or controlling effect or t❑ other substantial
grounds not previously presented - and this it is presented in good faith and
not for delay.

Noel Christopher Turner

10.

